No. 19-930
IN THE

6upreme Court of the aliniteb iptate5
CIC SERVICES, LLC,
Petitioner,
v.
INTERNAL REVENUE SERVICE, ET AL.,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF OF NATIONAL TAXPAYERS UNION
FOUNDATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONER

July 22, 2020

JOSEPH D. HENCHMAN*
*Counsel of Record
NATIONAL TAXPAYERS
UNION FOUNDATION
122 C Street N.W. #650
Washington, DC 20001
(703) 683-5700
jbh@ntu.org
Counsel for Amicus Curiae

WILSON-EPES PRINTING CO., INC. - (202) 789-0096- WASHINGTON, DC 20002

1

TABLE OF CONTENTS
Page
TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTEREST OF AMICUS CURIAE

1

SUMMARY OF ARGUMENT

2

ARGUMENT

4

I. THE ANTI-INJUNCTION ACT SHOULD NOT
APPLY BECAUSE TAXES ARE NOT AT ISSUE,
THE PURPOSE OF THE SUIT IS NOT TO
RESTRAIN REVENUE ASSESSMENT OR
COLLECTION, AND ASSESSMENT OR
COLLECTION HAS NOT OCCURRED.
4
Penalties Are Not Taxes

4

Effect Is Not Purpose.

7

Pre-Assessment Is Not Assessment

8

II. THE IRS POSITION THAT ITS GUIDANCE
IS NOT BINDING FOR PURPOSES OF THE
APA BUT BINDING FOR PURPOSES OF THE
AIA ALLOWS ITS ACTIONS TO BE TOTALLY
INSULATED FROM ADMINISTRATIVE AND
JUDICIAL REVIEW IN VIOLATION OF THE
10
DUE PROCESS CLAUSE.
CONCLUSION

15

11

TABLE OF AUTHORITIES
Cases

Alexander v. Americans United, Inc.,
412 U.S. 752 (1974)
Babbitt v. United Farm Workers Nat'l Union,
442 U.S. 289 (1979)
Bob Jones Univ. v. Simon,
416 U.S. 725 (1974)

8
12
8

Cohen v. United States,
650 F.3d 717 (D.C. Cir. 2011)

10

Direct Marketing Ass'n v. Brohl,
575 U.S. 1 (2015)

9, 10

Doe v. Bolton, 410 U.S. 179 (1973)

12

Ex Parte Young, 209 U.S. 123 (1908)

12

Florida Bankers Ass'n v. U.S. Dep't of the Treasury,
7, 8
799 F.3d 1065 (D.C. Cir. 2015)
Hibbs v. Winn, 542 U.S. 88 (2004)

10

Medlmmune, Inc. v. Genentech, Inc.,
549 U. S. 118 (2007)

12

Millard v. Roberts, 202 U.S. 429 (1906)
NFIB v. Sebelius, 567 U.S. 519 (2012)

6
6, 7

San Juan Cellular Telephone Co. v. Public Service
Commission of Puerto Rico, 967 F.2d 683
6
(1st Cir. 1992)
Steffel v. Thompson, 415 U. S. 452 (1974)

12

111

United States v. La Franca,
282 U.S. 568 (1931)

6

United States v. New York,
315 U.S. 510 (1942)

6

Statutes
26 U.S.C. § 6671(a)

4

26 U.S.C. § 7421(a)

2, 4

26 U.S.C. § 6707

7

Other Authorities
Kristin E. Hickman & Gerald Kerska, Restoring the
Lost Anti-Injunction Act, 103 Va. L. Rev. 1683,
11
1714 (2017)
Kristin E. Hickman, A Problem of Remedy:
Responding to Treasury's (Lack of) Compliance
with Administrative Procedure Act Rulemaking
Requirements, 76 Geo. Wash. L. Rev. 1153, 1214
11
(2008)
Pete Sepp, Shortsighted: How the IRS's Campaign
Against Conservation Easement Deductions
Threatens Taxpayers and the Environment,
11
National Taxpayers Union, Nov. 2018
Statement of Pete Sepp to the House Subcommittee
on Economic Growth, Tax, and Capital Access
Regarding IRS Small Business Reforms, Jun. 22,
14
2016

1

No. 19-930

IN THE

6upretue Court of tbe Einiteb 6tateg
CIC SERVICES, LLC,

Petitioner,
v.
INTERNAL REVENUE SERVICE, ET AL.,

Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Sixth Circuit

BRIEF OF NATIONAL TAXPAYERS UNION
FOUNDATION AS AMICUS CURIAE
IN SUPPORT OF PETITIONER
INTEREST OF AMICUS CURIAE1
The National Taxpayers Union Foundation
to Supreme Court Rule 37.6, counsel for Amicus
represents that it authored this brief in its entirety and that none
of the parties or their counsel, nor any other person or entity
other than Amicus or its counsel, made a monetary contribution
intended to fund the preparation or submission of this brief.
Pursuant to Rule 37.2(a), counsel for Amicus represents that all
parties were provided notice of Amicus's intention to file this
brief on July 10, 2020. Letters from the parties consenting to the
filing of the brief are filed with the Clerk of the Court.
1 Pursuant

2

submits this brief as amicus curiae in support of
Petitioner in the above-captioned matter.
Founded in 1973, the National Taxpayers Union
Foundation (NTUF) is a non-partisan research and
educational organization dedicated to showing
Americans how taxes, government spending, and
regulations affect them. NTUF advances principles of
limited government, simple taxation, and
transparency on both the state and federal levels.
Because Amicus has testified and written
extensively on the issues involved in this case, because
this Court's decision may be looked to as authority by
the many courts considering this issue, and because
any decision will significantly impact taxpayers and
tax administration, Amicus has an institutional
interest in this Court's ruling.
SUMMARY OF ARGUMENT
This is not a dispute over taxes, but over potential
penalties yet to be assessed. The Anti-Injunction Act
(AIA) provides that "no suit for the purpose of
restraining the assessment or collection of any tax
shall be maintained in any court by any person." 26
U.S.C. § 7421(a). To be insulated by the AIA from
immediate challenge, the levy at issue must be (a) a
tax, with the suit (b) for the purpose (not merely the
effect) of restraining the (c) assessment or collection of
the levy. In this case, however, Notice 2016-66 is not
a tax, the suit in question is not for the purpose of
restraining assessment or collection, and no
assessment or collection has occurred. The IRS can
only prevail by convincing this Court that penalty is
the same as tax, effect is the same as purpose, and pre-

3

assessment is the same as assessment.
It is no accident that the IRS position is that their
regulation is both exempt from the Administrative
Procedure Act (APA) and insulated from preenforcement review by the AIA. It is just one example
of a consistent effort by the IRS to insulate its actions
from outside review. If Notice 2016-66 is binding on
the taxpayer, and able to result in penalties, it is more
than just guidance and must go through the APA. If
Notice 2016-66 is advisory and not binding, it cannot
result in penalties and any challenge cannot be
precluded by the MA.
Assuming arguendo that the IRS is correct, and
Notice 2016-66 is both exempt from the APA and
insulated from pre-enforcement review by the AIA,
then its issuance and enforcement is violative of the
Due Process Clause. If the taxpayer's only remedy is
"report to prison first [and] challenge later," App. 55a
(Sutton, J., concurring), this is no longer about
ensuring the continuity of revenue collection but
rather about removing obstacles in the IRS's way as
they seek "to impose sweeping 'guidance' across areas
of public and private life, backed by civil and criminal
sanctions, and left unchecked by administrative or
judicial process." App. 62a (Thapar, J., dissenting).
These IRS abuses, while seemingly technical in
nature, have real impacts. The struggle for taxpayer
rights and safeguards against overreach from the
Internal Revenue Service has occupied National
Taxpayers Union Foundation and its sister
organization National Taxpayers Union for the better
part of five decades. We have noted since 2018 that the
IRS must establish more transparent, reliable

4

rulemaking and hew more closely to the APA's
safeguards. This Court can set the IRS on this path.

ARGUMENT
I. THE ANTI-INJUNCTION ACT SHOULD NOT
APPLY BECAUSE TAXES ARE NOT AT
ISSUE, THE PURPOSE OF THE SUIT IS
NOT TO RESTRAIN REVENUE
ASSESSMENT OR COLLECTION, AND
ASSESSMENT OR COLLECTION HAS NOT
OCCURRED.
The Anti-Injunction Act (AIA) provides that "no
suit for the purpose of restraining the assessment or
collection of any tax shall be maintained in any court
by any person." 26 U.S.C. § 7421(a). To be protected
by the AIA from immediate challenge, the levy at issue
must be (a) a tax, with the suit (b) for the purpose (not
merely the effect) of restraining the (c) assessment or
collection of the levy. In this case, however, the levy is
not a tax, the suit is not for the purpose of restraining
assessment or collection, and no assessment or
collection has occurred. The IRS can only prevail by
convincing this Court that penalty is the same as tax,
effect is the same as purpose, and pre-assessment is
the same as assessment.
A. Penalties Are Not Taxes.
The IRS repeatedly cites 26 U.S.C. § 6671(a),
which extends all references to "taxes" in Title 26 to
also apply to associated penalties, as bringing the
penalties in Notice 2016-66 within the scope of the
Anti-Injunction Act (AIA). See, e.g., Brief for the
Respondents in Opposition at I ("The term `tax' in that

5

provision is 'deemed also to refer to the penalties..."');
id. ("...the Code deems to be taxes."); id. at 3 ("...the
penalty for failing to provide the required information
about those transactions is deemed to be a tax by 26
U.S.C. 6671(a)...."); id. at 4 ("Like the penalty imposed
on a taxpayer who fails to report required information,
that penalty is 'deemed' to be a `tax.'"); id. at 13 ("...the
Code 'deems the penalties' imposed for noncompliance
with those requirements to be `taxes.'"); id. at 15 ("The
penalty... is deemed a tax for purposes of the
Code...."); id. at 16 ("Subchapter 68B... states in
pertinent part that 'except as otherwise provided, any
reference in this title to 'tax' imposed by this title shall
be deemed also to refer to the penalties and liabilities
provided by this subchapter...."); id. at 19 ("The
decision to deem penalties was made by Congress in
the language of Section 6671(a)...."); id. at 20 ("[B]y
deeming 'penalties' imposed by Subchapter 68B to be
`taxes' for purposes of the Code, 26 U.S.C. 6671(a),
Congress made clear that the term 'tax' is not confined
to an undefined subset of 'revenue-generating'
measures."); id. at 21 ("Congress's decision to deem
specified penalties to be taxes...."); id. at 22
("... statutory penalties that the Code deems to be
taxes."); id. at 26 ("...the penalty, which is deemed to
be a tax....").
But penalties are not taxes. The purpose of the
levy, not the label that happens to be used by the
legislature, is controlling: a tax is a charge imposed by
the government for the primary purpose of raising
revenue; a penalty is a charge imposed by the
government for the primary purpose of punishing or
changing behavior; a fee is a charge with the primary
purpose of recouping the costs of providing a

6

particularized service to the payer. See, e.g., United
States v. New York, 315 U.S. 510, 515-16 (1942) ("But
a tax for purposes of [the Bankruptcy Code] includes
any pecuniary burden laid upon individuals or
property for the purpose of supporting the
government, by whatever name it may be called.")
(internal citations omitted); United States v. La
Franca, 282 U.S. 568, 572 (1931) ("A 'tax' is an
enforced contribution to provide for the support of
government . . . ."); Millard v. Roberts, 202 U.S. 429,
436 (1906), quoting 1 Story Const. § 880; 4 Cooley, The
Law of Taxation, ch. 29 § 1784 (4th ed. 1924) ("If
revenue is the primary purpose and regulation is
merely incidental the imposition is a tax; while if
regulation is the primary purpose the mere fact that
incidentally revenue is also obtained does not make
the imposition a tax...."); San Juan Cellular
Telephone Co. v. Public Service Commission of Puerto
Rico, 967 F.2d 683, 685 (1st Cir. 1992). Here, the
charges operate as penalties and not taxes, and should
not enjoy the protection of the ATA, notwithstanding
the incidental revenue they raise.2
Admittedly, in NFIB v. Sebelius, this Court held
that Congress defines the scope of the Anti-Injunction
Act and can deem non-taxes to be taxes for purposes
of the Act, independent of an accepted definition of
"tax" or "penalty." See, e.g., NFIB v. Sebelius, 567 U.S.
519, 544 (2012) ("Congress can, of course, describe
something as a penalty but direct that it nonetheless
It is worth noting that not all penalties assessed by the IRS
are linked to taxes. While some penalties (such as for paying late)
are based on the percentage of the tax due or income unreported,
other penalties (such as for failing to file certain information
returns) are flat amounts irrespective of tax.
2

7

be treated as a tax for purposes of the Anti-Injunction
Act."). However, in doing so, the Court rejected a
broad reading that any money collected by the IRS be
considered within the scope of the MA. See id. at 546
("There would, for example, be no need for §6671(a) to
deem 'tax' to refer to certain assessable penalties if the
Code already included all such penalties in the term
`tax.'[...] The Affordable Care Act does not require that
the penalty for failing to comply with the individual
mandate be treated as a tax for purposes of the AntiInjunction Act.").
The IRS is effectively making that broad
argument here, that any regulation coupled with
penalties drawn from Title 26 are precluded from preenforcement review by the MA. See Brief for the
Respondents in Opposition at 16 ("The penalties at
issue here are imposed by 26 U.S.C. 6707, 6707A, and
6708, which appear in Subchapter 68B. References in
the Code to `tax[es],' including the Anti-Injunction Act,
thus encompass those penalties."). This Court should
reject this broad reading. NFIB stands for the position
that if a penalty is not a tax, the MA does not apply;
this does not mean that if a penalty is a tax then the
AIA must necessarily apply. See Florida Bankers
Ass'n v. U.S. Dep't of the Treasury, 799 F.3d 1065,
1080 (D.C. Cir. 2015) (Henderson, J., dissenting). To
the extent this Court must clarify its statements in
NFIB to make this understood, this Court should
consider doing so.
B. Effect Is Not Purpose.
Lacking any no evidence that Petitioner's suit is
for the "purpose" of restraining revenue collection,
Respondent argues that any "challenge to a regulatory

8

tax comes within the scope of the Anti-Injunction Act,
even if the plaintiff claims to be targeting the
regulatory aspect of the regulatory tax." See Brief for
the Respondents in Opposition at 22, citing Alexander
v. Americans United, Inc., 412 U.S. 752, 760-61 (1974)
(seeking to prevent removal of tax-exempt status);
Bob Jones Univ. v. Simon, 416 U.S. 725, 746-47 (1974)
(seeking to prevent removal of tax-exempt status);
Florida Bankers Ass'n, 799 F.3d at 1066 (challenge to
penalty for failure to report interest paid to foreign
account-holders).
Unlike here, those cited cases involved "nifty
wordplay," Florida Bankers, 799 F.3d at 1070, where
the only claimed injuries were higher taxes and it was
clear that the purpose of the lawsuits were to avoid
tax liability. In this case, there is no evidence
Petitioner's suit is for the "purpose" of restraining
revenue collection. "The purpose of its lawsuit is to
obtain relief from costs the company must pay today,
not to restrain a penalty it might have to pay
tomorrow." App. 64a (Thapar, J., dissenting).
If any taxpayer challenge to an IRS regulation will
be deemed to be undertaken for the "purpose" of
restraining revenue collection, even when there is no
evidence showing that to be the case, then what will
have happened is the AIA will have been judicially
rewritten to define the word "purpose" as "effect,"
substantially weakening taxpayer protections and
rejecting the plain meaning of the word used by
Congress.
C. Pre-Assessment Is Not Assessment.
No dollar amount is in dispute in this case because
nothing has been assessed or sought to be collected.

9

The IRS instead speaks about attenuated chains of
events in the future tense, warning that Petitioner's
suit will "frustrate the assessment and collection of
taxes," Brief for the Respondents in Opposition at 17,
and that invalidating Notice 2016-66 "necessarily
precludes assessment and collection of the penalty,"
id. at 26.
In fact, the dollars collected by the IRS will likely
be the same whether Petitioner prevails or not. If
Petitioner succeeds in seeing Notice 2016-66
invalidated, no penalties will be authorized to be
imposed. If Petitioner does not prevail, it is likely that
it will comply with the regulations one way or another
(either by satisfying the paperwork burden or by
ceasing to provide services that trigger it), and will not
pay the penalty. The only way the IRS will assess and
collect revenue is if taxpayers affirmatively violate
Notice 2016-66 after the measure is validated by this
Court, at which time incidentally the IRS believes
that a challenge could be entertained even though the
revenue impacts would be real and not just potential.
See id. at 28-29 ("Petitioner identifies no Code or
regulatory provision that would preclude a taxpayer
or material advisor who is assessed a tax for failing to
comply with the reporting and recordkeeping
requirements from challenging Notice 2016-66 in a
refund suit."). It is easy to see why the IRS prefers this
outcome: if any future potential assessment counts as
present assessment, no one will ever dare challenge a
regulation. It is hard to see why courts interested in
fair play and plain reading of statutory text would
entertain it. Cf. Direct Marketing Ass'n v. Brohl, 575
U.S. 1, 12 (2015) ("[T]he TIA is not keyed to all
activities that may improve a State's ability to assess

10

and collect taxes.... The TIA is keyed to the acts of
assessment, levy, and collection themselves, and
enforcement of the notice and reporting requirements
is none of these.").3
II. THE IRS POSITION THAT ITS GUIDANCE
IS NOT BINDING FOR PURPOSES OF THE
APA BUT BINDING FOR PURPOSES OF
THE AIA ALLOWS ITS ACTIONS TO BE
TOTALLY
INSULATED
FROM
ADMINISTRATIVE AND JUDICIAL
REVIEW IN VIOLATION OF THE DUE
PROCESS CLAUSE.
If Notice 2016-66 is binding on the taxpayer and
able to result in penalties, it is more than just
guidance and must be subjected to the procedufes laid
out in the APA to allow for meaningful public input. If
Notice 2016-66 is advisory and not binding, it cannot
result in penalties and any challenge cannot be
precluded by the MA.
It is no accident that the IRS has maneuvered to
this position, claiming that their regulation both need
not comply with the APA and is insulated from preenforcement review by the AIA. It is rather just one
example of a consistent effort by the IRS to insulate
its actions from outside review. See, e.g., Cohen v.
United States, 650 F.3d 717, 726 (D.C. Cir. 2011) (en
While DMA v. Brohl dealt with the Tax Injunction Act (TIA),
this Court held that the TIA "was modeled on the Anti-Injunction
Act" and that "words used in both Acts are generally used in the
same way, and we discern the meaning of the terms in the AIA
by reference to the broader Tax Code." Direct Marketing Ass'n v.
Brohl, 574 U.S. at 8, citing Hibbs v. Winn, 542 U.S. 88, 102-105
(2004).
3

11
banc) ("The IRS envisions a world in which no
challenge to its actions is ever outside the closed loop
of its taxing authority."); Pete Sepp, Shortsighted:
How the IRS's Campaign Against Conservation
Easement Deductions Threatens Taxpayers and the
Environment, National Taxpayers Union, Nov. 2018
("[T]ax administrators have trampled upon key
protections of NTU-backed laws while pursuing their
agenda, and taxpayers in all kinds of compliance and
collection due process situations are now endangered
from the precedents established by the government's
capricious behavior."); Kristin E. Hickman & Gerald
Kerska, Restoring the Lost Anti-Injunction Act, 103
Va. L. Rev. 1683, 1714 (2017) ("Even after the
Supreme Court's pronouncement in Mayo Foundation
that both specific and general authority Treasury
regulations carry the force of law, the government has
continued to assert that many or even most Treasury
regulations are exempt interpretative rules."); Kristin
E. Hickman, A Problem of Remedy: Responding to
Treasury's (Lack of) Compliance with Administrative
Procedure Act Rulemaking Requirements, 76 Geo.
Wash. L. Rev. 1153, 1214 (2008) ("Despite Treasury's
claims to the contrary, the evidence is strong that
Treasury has an APA compliance problem.").
Assuming arguendo that Respondent is correct,
and Notice 2016-66 is both exempt from the APA and
insulated from pre-enforcement review by the MA,
then its issuance and enforcement is violative of the
Due Process Clause of the U.S. Constitution. If the
taxpayer's only remedy is "report to prison first
challenge later," App. 55a (Sutton, J., concurring), this
is no longer about ensuring the continuity of revenue
collection but rather about removing obstacles in the

12

IRS's way as they seek "to impose sweeping 'guidance'
across areas of public and private life, backed by civil
and criminal sanctions, and left unchecked by
administrative or judicial process." App. 62a (Thapar,
J., dissenting). See also Medlmmune, Inc. v.
Genentech, Inc., 549 U. S. 118, 128-129 (2007)
("[W]here threatened action by government is
concerned, we do not require a plaintiff to expose
himself to liability before bringing suit to challenge
the basis for the threat"); Babbitt v. United Farm
Workers Nat'l Union, 442 U.S. 289, 298 (1979), citing
Doe v. Bolton, 410 U.S. 179, 188 (1973) ("[H]e should
not be required to await and undergo a criminal
prosecution as the sole means of seeking relief.");
Steffel v. Thompson, 415 U. S. 452, 459 (1974) ("[I]t is
not necessary that petitioner first expose himself to
actual arrest or prosecution to be entitled to challenge
a statute that he claims deters the exercise of his
constitutional rights"); Ex Parte Young, 209 U.S. 123,
148 (1908) ("Now, to impose upon a party interested
the burden of obtaining a judicial decision of such a
question (no prior hearing having ever been given)
only upon the condition that, if unsuccessful, he must
suffer imprisonment and pay fines, as provided in
these acts, is, in effect, to close up all approaches to
the courts, and thus prevent any hearing upon the
question whether the rates as provided by the acts are
not too low, and therefore invalid."). Here, the IRS can
only prevail if this Court validates its efforts to shut
down the important transparency and public input
processes of the APA and by twisting the AIA far
beyond its purpose, intent, and statutory text.
The struggle for taxpayer rights and safeguards
against overreach from the Internal. Revenue Service

13

has occupied National Taxpayers Union Foundation
and our sister organization National Taxpayers Union
(NTU) for the better part of five decades, involving at
least 10 significant legislative or administrative
reform initiatives such as the Taxpayer Bill of Rights,
the IRS Restructuring and Reform Act, and the
Taxpayer First Act. Each of these necessary course
corrections has been preceded by a few seemingly
small but telltale signs that the system of tax
administration is headed for a major malfunction.
Conventional, rarely-used tools of enforcement such
as civil asset forfeiture, joint liability for couples in tax
disputes, and the designated summons power for
uncooperative taxpayers have become weaponized to
threaten much larger portions of the filing population.
These developments in turn often portend a more
aggressive Service-wide stance toward taxpayers, one
that requires swift intervention from policymakers.
These IRS abuses, while seemingly technical in
nature, have real impacts. Customers of business
owners under audit have been confronted with a raft
of "routine questions" about how they conducted
transactions with the taxpayer being investigated.
Perfectly innocent and unrelated third parties to
transactions under IRS scrutiny have been
bombarded with Information Document Requests and
tax form filing requirements. Advisors as well as
professionals who perform arm's-length services for
compiling information to substantiate a tax deduction
are threatened with penalties and other disciplinary
actions. One of the most notorious cases that led to
passage of the first Taxpayer Bill of Rights in 1988
was that of Pennsylvania businessman Tom
Treadway, who lost his business due to a $247,000 tax

14

assessment that was later thrown revoked, but not
until the tax agency raided his girlfriend's bank
account in the process. In a 1990 Finance Committee
proceeding, Kay Council (an NTU member) described
how her husband, Alex, was driven to suicide after an
IRS audit of the Councils' real estate development
business disallowed a tax shelter. The tax agency
never contacted the Councils or their accountant
about the deficiency until four years after the fact, at
which point the tax bill had soared to nearly $300,000.
The IRS destroyed their business, and Kay Council
only prevailed after spending tens of thousands of
dollars on legal fees drawn partially from the life
insurance policy of her deceased husband. In 2016,
Congress discovered that the IRS had seized $40
million from 600 people: "individuals and families who
have been forced to forfeit their assets even though
they have not been proven guilty of any crimes."
Statement of Pete Sepp to the House Subcommittee on
Economic Growth, Tax, and Capital Access Regarding
IRS Small Business Reforms, Jun. 22, 2016.
As we noted in 2018, the IRS must establish "more
transparent, reliable rulemaking" by "hewing more
closely to APA's safeguards, . . . winding back the
doctrines that have built a wall of exemption between
the tax agency and the accountability mechanisms . .
. ." Pete Sepp, NTU Comments to the Acting IRS
Commissioner on Tax Reform Implementation, Feb.
2018. This Court can set the IRS on this path.

15

CONCLUSION
For the foregoing reasons, Amicus respectfully
requests that the decision of the court below be
reversed.
Respectfully submitted,
JOSEPH D. HENCHMAN*
*Counsel of Record
NATIONAL TAXPAYERS UNION
FOUNDATION
122 C Street N.W., Suite 650
Washington, DC 20001
(703) 683-5700
jbh@ntu.org
Counsel for Amicus Curiae
July 22, 2020

